<html>
<title> - THE REBALANCE TO ASIA: WHY SOUTH ASIA MATTERS (PART I)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                        THE REBALANCE TO ASIA: 
                    WHY SOUTH ASIA MATTERS (PART I)

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2013

                               __________

                            Serial No. 113-1

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
79-579                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e697e614e6d7b7d7a666b627e206d616320">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert O. Blake, Assistant Secretary, Bureau for 
  South and Central Asian Affairs, U.S. Department of State......    14
Mr. Joseph Y. Yun, Acting Assistant Secretary, Bureau East Asian 
  and Pacific Affairs, U.S. Department of State..................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     4
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................     9
The Honorable Robert O. Blake: Prepared statement................    16
Mr. Joseph Y. Yun: Prepared statement............................    26

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47


                        THE REBALANCE TO ASIA: 
                    WHY SOUTH ASIA MATTERS (PART I)

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2013

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Steve 
Chabot (chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon. I would like to welcome 
everybody to our first meeting of the Foreign Affairs 
Subcommittee on Asia and the Pacific. I want to welcome all of 
my colleagues, as I say, to the very first hearing this 
Congress.
    I want to acknowledge my friend from American Samoa, the 
distinguished ranking member, Mr. Faleomavaega. Eni, it has 
been a pleasure working with you over the years, and I welcome 
the opportunity now to sit side by side with you on this 
committee. I look forward to the opportunity to work with you. 
Eni and I actually were the representatives from the House of 
Representatives to the U.N. for a year right after 2001, the 
attack on our Nation, for about a year or so. It was an 
interesting time, and we have been friends for a long time now. 
Even though we are different parties, we actually do get along 
in this institution.
    It is a very critical time for Asia, and I know we will 
have plenty of work ahead of us over the next couple of years. 
I would also like to welcome all of our new freshmen members, 
which is actually a majority of the members of this committee, 
so we welcome all of them to the Congress. We are looking 
forward to working with each and every one of them and hope 
that they will enjoy serving on this subcommittee, both 
Democrats and Republicans.
    I would also like to welcome our distinguished witnesses: 
Assistant Secretary Robert Blake and Acting Assistant Secretary 
Joseph Yun.
    Before we begin, the ranking member and I will make opening 
statements. Other members will be given 1 minute to make a 
statement if they should choose to do so, and then we will get 
to the witnesses.
    Last Congress, I was honored to serve as chairman of the 
Subcommittee on the Middle East and South Asia, which was a 
truly rewarding experience--it was a time of both great 
opportunities and tragedy.
    As the new chair of the Subcommittee on Asia and the 
Pacific, I am happy to announce that South Asia is once again 
under the jurisdiction of this committee, the Asia and Pacific 
Subcommittee. Historically and culturally, I think combining 
the two makes sense. They share transnational threats from 
terrorism and natural disasters to nuclear proliferation and 
human rights abuses.
    In November 2011, the Obama administration detailed its 
plan to strengthen American engagement and leadership in the 
Asia-Pacific region in order to improve regional security, 
promote U.S. values, and increase economic prosperity. This 
strategic rebalance toward Asia is also viewed by many as an 
attempt by the United States to address the growing political 
and military influences of China.
    Examining the administration's efforts to create a more 
integrated approach to the region over the past 2 years, much 
of the focus has been on East Asia and Southeast Asia. We see 
this through the improved military relations with Philippines, 
South Korea, and Japan; the opening of a Marine base in Darwin, 
Australia; and the positioning of littoral combat ships in 
Singapore. We also witnessed this in Burma following the 
opening of its borders to the world and its pursuit of 
democratic reforms in which the United States has played a key 
role; and also in the ongoing Trans-Pacific Partnership 
Agreement negotiations that aim to create a high standard free 
trade agreement linking the Asia-Pacific region.
    While there have been successes, it seems many of the 
priorities and goals described in the ``pivot'' are more 
ambitious rhetoric than detailed plans describing how to 
achieve long-term sustainable results. And one area that we see 
a disparity in is a subregion that has been largely neglected 
from the rebalance strategy that is South Asia.
    Straddling the Red Sea, Arabian Sea, Bay of Bengal, and 
Java and South China Seas, South Asia bridges a world fraught 
with uprisings and civil strife to one that will drive global 
politics and the world's economy. It consists of the world's 
largest democracy, second most populous nation, one of the 
poorest countries, and one of the youngest overall 
demographics. As the center of the Indian Ocean Rim-land that 
extends from the Middle East to India and south to Indonesia, 
South Asia is a subregion in need of strategic stability.
    The scene of a power struggle for energy and security, the 
Indian Ocean maritime region holds the world's most important 
shipping and trade routes, accounting for 70 percent of 
petroleum product shipments and half of the world's container 
traffic. It is in the recognition of this region's importance 
that the rivalry between China and India is interlocked with a 
rivalry between the United States and China.
    The rise of China, India, and other Asian nations, and the 
rapid growth and seaborne trade and dependence upon imported 
energy from the Indian Ocean through the Straits of Malacca, 
has resulted in the unification of the Indian Ocean maritime 
region to the Pacific as one geostrategic space, in what some 
refer to as the ``Indo-Pacific'' region.
    Secretary Clinton used ``Indo-Pacific'' for the first time 
in November of last year to describe the integration of South 
Asia as part of the United States' broader strategic rebalance 
to Asia. I welcome this as a sign that India and the broader 
region will play a more critical role going forward. I do not 
believe the ``pivot'' will succeed unless the U.S. does more to 
build stronger relationships in South Asia and with India, in 
particular.
    India's cultural influence, pluralistic society, democratic 
government, and growing military power place India in the 
position to take advantage of future economic growth in East 
and Southeast Asia, while also contributing to regional 
security and achieving national security interests that both 
India and the U.S. share.
    While we have seen progress in certain areas of the U.S.-
India relationship, many arenas are at a state of frustrating 
impasse. This is partly due to the divergence of various 
objectives in the region, historical distrust, and India's 
determination to maintain strategic autonomy. These concerns 
raise many questions about how to move forward; however, these 
obstacles should not impede efforts to place the U.S.-India 
relationship as a key feature of the broader U.S. strategy in 
Asia.
    The administration stated in December 2012 that its 
``strategic rebalancing to Asia will continue with renewed 
vigor,'' and that ``U.S. engagement in South Asia would be 
central to the reinvigorated outreach.'' I hope the witnesses 
here today will elaborate on this statement and discuss how the 
administration is planning to continue the rebalance with a 
stronger focus on South Asia, not forgetting U.S. engagement 
with Bangladesh, Sri Lanka, Nepal, the Maldives, and Pakistan, 
and further elaborate on specific actions or commitments it 
plans to take in this effort to achieve more tangible results.
    I now yield to the gentleman from American Samoa, Mr. 
Faleomavaega, for a 5-minute opening statement.
    [The prepared statement of Mr. Chabot follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Faleomavaega. Thank you, Mr. Chairman. And I certainly 
want to say for the record how pleased I am and what an honor 
it is for me personally to have you as the chairman of this 
important subcommittee.
    And I also want to welcome our colleagues in the 
subcommittee as we will be discussing and I am sure dialoguing 
some very important issues affecting this region of the world.
    I also want to offer my personal welcome to the two 
gentlemen who will be testifying before our subcommittee. In 
all the years that I have been here, Mr. Chairman, this is the 
first time in history that we have had now two Assistant 
Secretaries testifying before this committee. So I am really, 
really blessed and very, very happy to see Secretary Blake and 
also Secretary Yun here with us this morning.
    Mr. Chairman, thank you for this hearing. I cannot think of 
a better subject or issue that we should be discussing. As I 
have said for many years--in the years that I have served on 
this committee--my personal opinion, nobody wanted to talk 
about Asia-Pacific issues because the entire mentality here in 
Washington, both in the Congress and previous administrations, 
leaned toward Europe and the Middle East. If we weren't bashing 
the Chinese, we were bashing the Japanese, nothing passive in 
terms of our looking at the Asia-Pacific region as an important 
and integral part of what should be our relationship with this 
region.
    Today we are playing catchup in a region that accounts for 
more than 60 percent of the world's population. In 2011, the 
Asia-Pacific region surpassed Europe to become the top exporter 
of merchandise. Two years ago, or 2010--I am sorry--the world's 
top container ports were in the Asia-Pacific region, including 
the top five container ports in the world are in the Asia-
Pacific region.
    I remember a couple of years ago, the late Senator Daniel 
Inouye made an observation that for every 747 that flies across 
the Atlantic, four 747s fly in between the Pacific and the 
United States. The U.S. has a vital interest in making sure 
there is a free flow of global trade and commerce through the 
sea lanes of the Indian Ocean. The Strait of Malacca is one of 
the most important shipping lanes in the world. Thousands of 
vessels pass through the strait per year, carrying about one-
quarter of the world's traded goods, including oil, about a 
quarter of the oil carried by sea passage through the strait.
    I might also comment, Mr. Chairman, that another very 
important strait that is connected through the Indian Ocean is 
the Strait of Hormuz between Iran and Saudi Arabia. We need to 
remember that as well.
    For the first time since 1979, Iran naval forces just 
crossed the Strait of Malacca and will dock in China, India, or 
Sri Lanka.
    Regarding Sri Lanka, Mr. Chairman, I agree with the Gary 
Luger congressional report, which declares we need to rechart 
U.S. strategy in Sri Lanka beyond humanitarian and political 
reforms. The U.S. simply cannot afford to lose Sri Lanka due to 
its strategic importance.
    Last week I had the privilege of visiting Sri Lanka. I met 
with President Rajapaksa for more than 2 hours. I also met with 
governor of the northern province and personally visited Jaffna 
because I wanted to see for myself the post-conflict 
development since 2009, when Sri Lanka finally became the first 
country in the world to eradicate terrorism on its own soil by 
defeating the Tamil Tigers, which remains listed as a terrorist 
organization by 32 countries, including our own country, Mr. 
Chairman, India, Canada, and members of the European Union, and 
dubbed by the FBI as one of the most ruthless terrorist 
organizations in the world.
    After a 30-year terrorist conflict or war, the challenges 
the Sri Lankan Government faces are enormous, but the strides 
the government has made to rebuild in a way that establishes 
lasting peace and equality for all citizens should be firmly 
acknowledged. The United States should join Australia in 
praising the work the Sri Lankan Government has done in the 
north and east of the island in such a short period since the 
war, as Australian deputy opposition leader Julie Bishop and 
the parliamentary delegation she led recently stated on their 
visit.
    Regrettably, in the resolution it intends to submit again 
to the United Nations Human Rights Council, the U.S. fails to 
mention one, not even one, positive development for Sri Lanka. 
Such failure suggests that the United States is not being 
evenhanded when it comes to dealing with sensitive human rights 
issues across the globe.
    And I am, Mr. Chairman, deeply concerned that our 
inconsistent policies, which lead to a loss of credibility for 
the United States, which will negatively impact our relations 
in the Asia-Pacific region for years to come.
    So I call upon my Government, the United States of America, 
to find a better way forward, rather than using the United 
Nations resolutions to destabilize developing nations and Sri 
Lanka while ignoring human rights abuses in nations like in 
Asia, where our geopolitical, strategic, and military interests 
supersede our human rights agenda.
    The U.S.-led United Nations resolution should also be 
withdrawn for focusing only on the last few months of the war 
and failing to acknowledge, therefore, almost 30 years, Mr. 
Chairman, the Tamil Tigers hacked to death innocent women, men, 
women, and children, in Sri Lanka; carried out some 378 suicide 
attacks, more than any other terrorist organization in the 
world.
    We also do not need to criticize Sri Lanka for borrowing 
money from China. And, by the way, I was there, Mr. Chairman. 
In terms of our ability to provide assistance to these Third 
World countries, China was able to provide Sri Lanka with $500 
million of low-interest loans for them to rebuild their seaport 
as well as the brand new international airport that I was there 
to witness.
    I also want to suggest that it is time for our Government 
to begin a dialogue with the Chief Minister Modi, the Chief 
Minister Modi, who may well be the next prime minister for 
India. The U.S.-India relationship is significant, as you have 
commented in your statement, Mr. Chairman. It is one of the 
defining partnerships of the 21st century. And Chief Minister 
Modi is a leading figure in that process.
    Chief Minister Modi's philosophy of bringing development to 
the doorstep of every poor person, every farmer, every worker 
is a philosophy that transcends caste, culture, regional, and 
religious differences, and has led to a decade of unprecedented 
growth and development in the province of the State of Gujarat, 
a key state, which has contributed considerably to India's 
economy and development. Companies like Ford and General Motors 
are setting up factories in Gujarat and in a move that promises 
to strengthen U.S.-India relations now and in the years to 
come.
    I note my time is up, Mr. Chairman. I will leave the rest 
for another opportunity, but I do want to thank you and thank 
my colleagues for their attendance at this hearing. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Faleomavaega 
follows:]<greek-l>Faleomavaega statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Mr. Chabot. I thank the gentleman.
    The Chair will recognize back and forth, as all the 
committees do. We go by seniority, although we do go by who was 
here when the meeting actually began at that point and then 
seniority from there. That is the list I have, so that is the 
reason I will be calling in the order that I am at this point.
    We will now hear from anyone who has a 1-minute opening 
statement. We will first go to Representative Holding from 
North Carolina.
    Mr. Holding. Thank you, Mr. Chairman, for calling this 
hearing today. And thank you to the witnesses for your time and 
your testimonies that we are going to hear.
    You know there has been a lot of rhetoric put forward from 
this administration about a so-called pivot toward Asia and the 
Pacific, but, Mr. Chairman, I would submit that that rhetoric 
has largely remained just that: Rhetoric. The United States has 
always maintained an interest in the Asian and Indo-Pacific 
regions. This includes economic interests in established and 
emerging markets but one that also includes strategic defense, 
national security interests, one that has once again been 
reinforced by recent actions in North Korea. Any move toward 
the Asia-Pacific region must ensure both interests are given 
close and careful consideration.
    I look forward to getting the answers to numerous questions 
that remain from this administration regarding the pivot and 
especially those policies impacting Southeast Asia. So thank 
you, Mr. Chairman. I yield back.
    Mr. Chabot. Thank you.
    The gentleman from California, Mr. Bera, is recognized for 
1 minute for an opening statement.
    Mr. Bera. Thank you, Mr. Chairman and ranking member, for 
calling this hearing. Thank you to the witnesses.
    America's pivot to Asia is critical at this juncture and is 
a much needed evolution of our foreign policy, particularly out 
shift to South Asia as we look at building a critical strategy 
around our relationship with India.
    The U.S.-Indian relationship is critical and vital to us, 
both economically and strategically. And we find ourselves at a 
moment in time when we are going to be drawing down our troops 
in Afghanistan. India has a critical role in holding onto and 
maintaining some of the gains that we have made. India has a 
critical role in helping anchor stability in that region.
    Economically, you know, trade with India is vital. From my 
home state, California, we export over $3.7 billion annually. 
And that is just the tip of the iceberg. If we can strengthen 
our trading relationship and open up India's export markets, 
this will be very strategic in a bilateral way to both 
countries.
    I look forward to hearing both of the witnesses talk about 
this strategic relationship. Thank you.
    Mr. Chabot. Thank you very much.
    The gentleman from Pennsylvania, Mr. Perry, is recognized.
    Mr. Perry. Thank you, Mr. Chairman and ranking member. 
Thank you, gentlemen, for agreeing to testify and, of course, 
all of the guests as well. I am privileged to be here.
    And I, too, agree with the administration's pivot on policy 
to this region, but it cannot be one of rhetoric only. It has 
to be one of action and robust action. We must, I think, 
provide confidence to our allies and friends in the region 
while recognizing the interests of China, but we need to also 
urge them to be responsible partners with all of their 
neighbors regarding trade, human rights, and military activity. 
And I look forward to your testimony in that regard.
    Thank you.
    Mr. Chabot. The gentleman from California is recognized. 
Mr. Sherman?
    Mr. Sherman. It is important to support the pivot to the 
Asia-Pacific region as to our diplomatic resources, but if it 
includes a pivot involving our military resources, we should 
reflect on the fact that we already have nearly 100,000 ground 
troops in the region, that confronting China over the islands 
it disputes with Japan could involve resources involving many 
tens of billions of dollars and that Japan itself has not 
devoted all that much in the way of economic resources to the 
defense of these islands.
    The United States' relationship with India is based on a 
shared commitment to democracy. Both nations have suffered from 
terrorism. And the U.S.-India relationship I think will be 
pivotal, both economically and strategically.
    This committee strongly supported, sent to the floor, and 
passed through the House a bill that included a provision 
calling for Voice of America broadcasts in the Sindi language. 
And I hope that we will reach out to the people of Pakistan in 
the languages they speak, not just the languages spoken by the 
government officially. And I look forward to hearing the 
testimony.
    Mr. Chabot. Thank you.
    The gentleman from Indiana, Mr. Messer, is recognized.
    Mr. Messer. Thank you, Mr. Chairman, ranking member. Thank 
you to the witnesses. I appreciate this opportunity to be here 
to learn more about the Indo-Pacific region. Obviously it has 
very important implications for our national security but also 
the American economy.
    I represent 19 small towns in eastern and southeastern 
Indiana, many of them with an agricultural or manufacturing-
based economy. The countries in this region have companies 
doing business over in my area of the world. It is important we 
maintain those relationships as well.
    Thank you.
    Mr. Chabot. Thank you.
    The gentlelady from Hawaii, Ms. Gabbard, is recognized for 
a minute.
    Ms. Gabbard. Thank you very much, Mr. Chairman, Ranking 
Member Faleomavaega for convening this important hearing.
    And please do hear the resolve from my colleagues talking 
about robust action, not rhetoric, as we look toward this 
pivot, toward Asia and the Pacific. Coming from Hawaii, these 
exchanges and partnerships and friendships between countries 
across the Pacific and Asia, South Asia in particular, are 
really a way of life for us in Hawaii, both economically and 
culturally, and understand how this is vital, strategic, and 
really related to security now for our country and that we have 
to remain committed to engaging these nations.
    I have personally involved with engagements, including with 
the National Guard; been witness to many of the military 
exchanges and the economic and educational and cultural 
exchanges that have done volumes for us as a country; and look 
forward to being able to continue that work and hearing from 
our witnesses today.
    Thank you.
    Mr. Chabot. Thank you very much.
    I would now like to introduce our distinguished panel here 
this afternoon. We will begin with Ambassador Robert Blake, who 
is the Assistant Secretary for South and Central Asia at the 
U.S. State Department. As Assistant Secretary, he oversees U.S. 
foreign policy with India, Bangladesh, Sri Lanka, Nepal, the 
Maldives, Bhutan, Kazakhstan, Uzbekistan, Kyrgyzstan, 
Turkmenistan, and Tajikistan. He previously served as 
Ambassador to Sri Lanka and Maldives from 2006 to mid-2009, and 
deputy of chief of mission at the U.S. Mission in New Delhi, 
India from 2003 to 2006. Since entering the Foreign Service in 
1985, he has served at the American Embassies in Tunisia, 
Algeria, Nigeria, and Egypt. We welcome you here this 
afternoon.
    I would now like to introduce Mr. Joseph Yun, who is 
currently Acting Assistant Secretary for East Asia and the 
Pacific, also at the State Department. He was previously 
Principal Deputy Assistant Secretary in the Bureau of East 
Asian and Pacific Affairs under Assistant Secretary Kurt 
Campbell before he left just a couple of weeks ago. Since 
entering the Foreign Service in 1985, Mr. Yun has served at 
American Embassies in the Republic of Korea, Thailand, France, 
Indonesia, and Hong Kong.
    Without objection, all of the witnesses' prepared 
statements will be made a part of the record. We would ask that 
each of the witnesses keep their presentations as close to 5 
minutes as possible. We also have a lighting system. You will 
get a yellow light when you have 1 minute. When the red light 
comes on, we would appreciate if you would wrap up.
    So we will begin with you, Ambassador Blake.
    Mr. Blake. Well, thank you very much, Mr. Chairman. And 
thanks as well to the ranking member and to all of the members 
of this committee for inviting me here today.

     STATEMENT OF THE HONORABLE ROBERT O. BLAKE, ASSISTANT 
  SECRETARY, BUREAU FOR SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Blake. Let me say at the outset that it has been a 
privilege and a pleasure to work with you, Mr. Chairman and Mr. 
Ranking Member, over the last several years. I look forward to 
continuing that very close cooperation.
    Before I begin, I want to just congratulate the committee 
on the reorganization of the subcommittee to include South Asia 
together with the East Asia and Pacific region. Many of the 
policies that we have been promoting in the region over the 
past few years reinforce the subcommittee's new organizational 
structure. So we see this as a positive development that will 
help us to address the challenges and the opportunities 
presented by this dynamic part of the world.
    One quick note. The South Asia region that I cover consists 
of India, Nepal, Bangladesh, Sri Lanka, Bhutan, and the 
Maldives. So while Afghanistan and Pakistan, of course, play a 
large role in South Asia, my remarks here today will focus 
mostly on India, the Asia-Pacific, and the greater connectivity 
between the two. This is also reflected in the more 
comprehensive written statement that I have submitted for the 
record.
    Mr. Chairman, to fully understand why South Asia matters, 
we need to first look at the Asia-Pacific as a single 
geographically coherent space, one that not only ends on our 
own shores but also expands westward to encompass the Indian 
subcontinent. Much of the history of the 21st century will be 
written in this broader Asia-Pacific region, projected to 
become home to over 5.2 billion people by 2050. That history 
will have a profound impact on the people and the economy of 
the United States.
    Any discussion of South Asia has to start with India. It is 
one of our most trusted and valuable partners in the region 
and, really, the foundation upon which greater regional 
economic cooperation and expansion will be built.
    Our relationship, from our burgeoning trade to defense 
sales and exercises to our growing education and clean energy 
partnerships, has never been stronger. Just think about how far 
India has come in the past 20 years, with a GDP 10 times what 
it was in 1993. What was then a closed economy is now the 13th 
largest trading partner of the United States in goods. And by 
2025, India is projected to become the world's third largest 
economy. With that growth will come enormous resource 
constraints, particularly in infrastructure. Current estimates 
suggest that 80 percent of the infrastructure required to 
sustain and support India in 2025 has yet to be built. So we 
see an enormous opportunity in this growth to deepen our 
commercial partnership with India, working together with 
American companies to build the airports, power plants, water 
and sanitation systems, and fiber optic networks of India's 
future.
    Although the U.S.-India relationship is a topic that could 
easily take up our entire afternoon, I would like to quickly 
shift our focus to India's immediate neighborhood, a region 
where prospects for economic growth loom larger than anywhere 
on Earth. Thanks in part to Burma's recent political and 
economic reforms, we now see unprecedented opportunities for 
trade and engagement between South and East Asia.
    Nowhere are those opportunities more pronounced than along 
the emergent air, road, and sea links between India, 
Bangladesh, Burma, and the rapidly expanding economies of the 
Association of South East Asian Nations. In the past year 
alone, trade between India and the countries of Southeast Asia 
has increased by 37 percent. This emerging Indo-Pacific 
economic corridor isn't just a boon for the region. It provides 
American businesses with substantial new markets.
    Mr. Chairman, just a few words in closing. We are bullish 
on the future of this region, but we are also clear-eyed about 
the challenges that we face: Terrorism, such as we saw last 
week in Hyderabad; regional rivalries; nuclear proliferation; 
refugees; human trafficking; and the potentially catastrophic 
effects of global climate change. But the architecture of 
cooperation we are building together with the countries of the 
region is helping meet these challenges. And we continue to 
view South and Southeast Asia, including the Indian Ocean, as a 
crucial driver for America's economic growth and prosperity. We 
must continue building the regional and bilateral partnerships 
at the heart of a more stable, prosperous, and democratic Asia-
Pacific so that our own country can continue to grow and 
prosper in the 21st century.
    So I thank you again, Mr. Chairman. I look forward to 
taking your questions.
    [The prepared statement of Mr. Blake follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much for your testimony, Mr. 
Ambassador. We appreciate it.
    And now we will move to Mr. Yun. You are recognized for 5 
minutes.
    Mr. Yun. Thank you very much, Mr. Chairman and Mr. 
Faleomavaega and members of the subcommittee. Thank you very 
much for inviting me here today to testify why South Asia 
matters in our engagement with East Asia and Pacific region.

  STATEMENT OF MR. JOSEPH Y. YUN, ACTING ASSISTANT SECRETARY, 
BUREAU EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Yun. Mr. Chairman, as you have pointed out, it is 
increasingly important that the U.S. views the Indian Ocean 
region and East Asia and the Pacific region in a coherent and 
integrated manner. The current organization of this 
subcommittee to include both South Asia and East Asia is an 
important recognition of this strategic imperative. I believe 
that this new vision will help the United States better address 
the key challenges and opportunities in the Asia-Pacific 
region.
    As a Pacific power, the U.S. is bound to Asia through 
geography, history, alliances, and economic ties. Growing 
numbers of American companies are investing in and exporting to 
rapidly expanding Asian markets. Asian-Pacific businesses are 
increasing their profiles in the U.S. and providing jobs for 
American workers. Record numbers of American citizens now live, 
work, and study in this part of the world. These connections 
underscore our significant stake in the region's stability and 
prosperity.
    Our department's multifaceted approach to the Asia-Pacific 
region reflects this reality. We have sought to amplify our 
political and security ties as well as our economic engagement. 
We are strengthening and modernizing our longstanding alliances 
with Japan, the Republic of Korea, Australia, Thailand, the 
Philippines, which have for decades been the foundation for the 
region's stability. And, given the importance, strategic 
importance, and collective significance of Southeast Asia and 
the Pacific, we have also increased our engagement with 
Indonesia, Vietnam, Singapore, Malaysia, Brunei, New Zealand, 
and the Pacific Islands. Our efforts with China, which include 
an unprecedented number of high-level and people-to-people 
interactions, aim to build a stable relationship grounded in 
reality but also true to our principles and interests.
    On the economic side, we have elevated our engagement in 
the region through multiple avenues, from hosting APEC in 2011 
to last July's commitment to connectivity, which brought 
together the largest grouping of U.S. and ASEAN Government and 
business leaders ever.
    We are working on comprehensive and high-standard trade 
agreements in the region. In fact, just the Trans-Pacific 
Partnership to level the playing field for American companies 
and advance a rule space trading system. At the East Asia 
Summit last November, the President announced a new initiative 
called the U.S.-Asia-Pacific Comprehensive Energy Partnership, 
which cuts across ASEAN, APEC, and other Asian regional forums 
to promote the development of new and sustainable energy 
markets in the region. At the same summit, the President also 
announced a trade and investment engagement program with the 10 
ASEAN countries, known as the Enhanced Economic Engagement, 
which is dealing with trade facilitation, investment rules, and 
digital economy issues.
    Across the region, the United States is seeking sustained 
adherence to democratic practices and improved governance. We 
press for improvements with those governments that fall short 
in human rights and support those struggling to promote the 
values we share. Our commitment to advancing freedom, 
democracy, and the rule of law has manifest itself in our 
steadfast support for reform and opening in Burma, where 
positive developments on a range of political and humanitarian 
concerns of the international community have allowed us to open 
a new chapter in bilateral relations.
    Mr. Chairman, I am pleased to report that the message from 
the region to U.S. has been clear. Asians are saying that the 
role of the U.S. in Asia is critical and that they want to see 
us even more engaged in diplomacy, security, trade and 
investment, and more programs linking Asians and Americans, 
such as education, cultural exchange, sports, tourism, just to 
mention a few.
    So why do South Asia and Indian Ocean regions matter to 
what the U.S. does in Northeast or Southeast Asia? The answer, 
we believe, lies in the fact that the Indian and Pacific Oceans 
now form a continuous throughway for global commerce and 
energy. China, Japan, South Korea, and others in the region 
depend upon the secure access of energy and raw material from 
the Middle East and Africa. As these trends continue, any 
significant disruptions of trade in Indian and Pacific Oceans 
will have serious global repercussions that would also be felt 
here at home by American workers.
    So as economic and strategic interests continue to span the 
breadth of the Indo-Pacific, we have an important state in 
ensuring freedom of navigation, promoting respect for 
international law, and fostering greater cooperation and 
dialogue among the countries of both regions on maritime 
security.
    Thank you for giving me the opportunity to testify today, 
Mr. Chairman. I am pleased to answer any questions you may 
have.
    [The prepared statement of Mr. Yun follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much. We appreciate the 
testimony of both of our witnesses here this afternoon.
    I will now recognize each member for 5 minutes to ask 
questions. I will begin with myself.
    First question I will address to you, Ambassador Blake. The 
2008 Indo-U.S. Civilian Nuclear Agreement was considered a 
watershed moment for U.S.-India relations, but 4 years later, 
many believe that it has failed to tie India closer to the 
U.S.-led global nonproliferation and arms control architecture.
    India has made no efforts to sign the Comprehensive Test 
Ban Treaty or to voluntarily halt its production of fissile 
materials. The deal was also supposed to build a robust 
security relationship between the U.S. and India serving as the 
nucleus to balance Chinese power. However, India's Non-
Alignment 1.0 and now Non-Alignment 2.0 have made this goal a 
strategic nightmare.
    At the same time, in pursuit of a greater global presence, 
India seeks to join the five permanent members of the U.N. 
Security Council and the four major arms control groups, 
including the Nuclear Suppliers Group, the Wassenaar 
Arrangement, the Australia Group, and the Missile Technology 
Control Regime. Ambassador Blake, what is the outlook for 
India's participation in these groups?
    And, with reference to the Indo Civilian Nuclear Agreement, 
have the U.S. and India made any progress on resolving the 
nuclear liability issue, which has created an obstacle for a 
number of U.S. firms? What is the administration doing in order 
to move this issue forward?
    Mr. Blake. Thank you very much for that question, Mr. 
Chairman.
    Let me just talk a little bit about the nuclear deal first. 
As you say, this is one of the really transformative deals that 
was done in the course of the Bush administration. The Obama 
administration came in, determined to try to continue that 
momentum. I think there has been some progress, but there are 
also still many challenges ahead.
    One challenge is that India passed a nuclear liability law 
that our companies do not agree with and do not think provide 
them sufficient protection from possible liability suits. And, 
therefore, we have focused most of our efforts on trying to 
negotiate with the unions and support our companies' efforts to 
negotiate what are called early works agreements that are 
things like site preparation and early contracts and things 
like that that could again pave the way for future civil 
nuclear contracts.
    The Indians have set aside several areas in Gujarat and 
Andhra Pradesh for American companies to eventually build such 
plants. And we continue to work through our liability concerns 
with the Indian Government. So we hope very much this year that 
one of these early works agreements can be signed by 
Westinghouse and the Nuclear Power Corporation of India 
Limited, which is its counterpart. So I think there has been 
progress, but, again, much work needs to be done.
    With respect to your comment about how India is not 
aligned, actually, I would, respectfully, disagree. India has 
moved very, very much closer to us now on defense cooperation. 
We now have the largest exercise program of any country in the 
world with India. And I think all three of their services very 
much appreciate the opportunity to exercise with ours. And 
there is a growing coordination in that respect.
    Likewise, our defense sales relationship has grown from 
virtually nothing to more than 9 billion with several billion 
more of sales pending now. So, again, I think our militaries 
are growing much closer together. And there is great interest 
in developing closer interoperability and closing working 
relationships. And we will certainly continue to build on 
those.
    Mr. Chabot. Thank you.
    And in a limited time--I have about a minute left here--let 
me just touch on Sri Lanka. I know my ranking member had 
brought up Sri Lanka, which can be a quite controversial issue. 
There are two sides to a lot of the things that are said about 
this. I have had many contacts with the government and also 
with the Tamils. And, shall we say, they differ in a number of 
areas.
    I would say the attempts at reconciliation between the 
government and the Tamil people have been disappointing in many 
respects. Sri Lankan leaders, for example, are talking about 
repealing the Thirteenth Amendment, which guarantees certain 
basic rights to provincial councils. And U.S. policy toward Sri 
Lanka has, so far, apparently not worked out or been able to 
convince the government to keep its basic agreements to bring 
reconciliation and political settlement to fruition.
    What steps has and can the administration make to urge the 
government to move toward a more genuine reconciliation with 
the Tamil community? And either one, but if you could keep it 
relatively short because our time is now up?
    Mr. Blake. Let me try to answer your question and also the 
ranking member's question simultaneously because he talked 
about that in his statement. And let me just say with a little 
bit of background that, you know, obviously I have been working 
on Sri Lanka now for 6 years. I know the country extremely 
well. I consider myself a friend of the country and supporter 
of the country. And at the end of the conflict, as you know, 
there were many questions about the number of civilians that 
were killed at the very end of the conflict. And independent 
U.N. panel estimated that between 10,000 and 40,000 innocent 
civilians may have been killed.
    Nonetheless, the United States decided that it would 
support a domestic that was a Sri Lankan domestic process to 
try to get to the bottom of that and to investigate that and to 
develop what has now been called a lessons learned and 
reconciliation commission process. But we did so with the 
understanding, Mr. Chairman, that there would be rapid progress 
toward reconciliation and accountability.
    And I must say progress thus far on implementing the LLRC 
action plan has been slow. And we have been disappointed, as 
you say, that the government has not proceed so far with 
elections for the Northern Provincial Council 4 years after the 
end of the war. We have been disappointed that there hasn't 
been a conclusion of the dialogue between the Tamil National 
Alliance, the umbrella group for the Tamil groups, as well as 
to permit a T&A of dialogue with the government on devolution. 
And we have been disappointed that there has been some backward 
movement on democracy, as you say, things like the Thirteenth 
Amendment but also recent impeachment of the Sri Lanka's chief 
justice.
    So, for that reason, last year we supported a resolution in 
the U.N. Human Rights Council to put additional pressure on Sri 
Lanka to implement its own lessons learned and reconciliation 
report. We did so with the support of countries like India that 
voted yes and a large majority of other countries in the Human 
Rights Council.
    I think there is good support thus far to have another vote 
this year to continue to urge Sri Lanka to implement its own 
report. And that is why we are pursuing that again this year.
    Mr. Chabot. Thank you very much. My time has expired.
    The gentleman from American Samoa is recognized.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I do want to say to Secretary Blake that this is not in any 
way a personal attack on you, but I do want to follow up on the 
chairman's question and concerns about the situation in Sri 
Lanka.
    I mentioned in my statement about the double standard that 
we are applying as far as violation of human rights. And the 
sense that I have, why is the most powerful country in the 
world picking on a small, little country like Sri Lanka, the 
size of West Virginia, 60,000 square miles with only 3 million 
people? We talk about 41 million people living there.
    The question, the serious question, I have is that for 27-
29 years, this country was in a state of civil war. It is not a 
conflict. It is not a question of a time when people are asking 
for more autonomy. We have to understand that not all Tamils 
are members of this terrorist organization called the LTTE, or 
Tamil Tigers that our Government along with 32 other countries 
had also categorized as a terrorist organization. And in the 
process you are talking about 27 years where some 80,000 to 
100,000 Sri Lankans ended up dead--a lot of innocent men, 
women, and children, what I am trying to seek here is that 
there also was a country that had a civil war--the United 
States of America after 4 years, we ended up with 600,000 of 
our soldiers dying from that terrible conflict.
    And it wasn't a question of the Southern states asking for 
autonomy. They wanted to secede, to pull away from their mother 
country, just like the Tamil Tigers wanted to do in their 
efforts in seeking this war against the Tamil government.
    My concern here is that we are looking at such a small, 
little sequence that was 2 or 3 months that now we are 
questioning and the reason why we have this resolution before 
the United Nations Human Rights Council but forgetting the fact 
that for 29 years, the Sri Lanka Government has had to deal 
with this terrorist organization. And I just could not believe 
the atrocities that were committed by these people. And now 
over night, we just say, ``Oh, we have got to get this 
resolution in here.'' So this is where my concern is that this 
is a double standard.
    Our Government for the 10-year period we were in war in 
Vietnam, Mr. Secretary. Let's talk about the tens of thousands 
of women and children, innocent civilians that were exposed to 
Agent Orange when we were there for the 10-year period. Let's 
ask the people in Laos and Cambodia about the 6 million pounds 
of cluster bombs that we dropped there. These countries never 
declared war on us.
    Where is the consistency in our standards as far as human 
rights are concerned? We are pointing the finger at this little 
country, Sri Lanka. I think that perhaps we need to clean up 
our own backyard and suggest that maybe we would be a little 
more consistent. If we are going to do it against Sri Lanka, 
let's make sure that we are clean ourselves.
    I just wanted you to comment on that. I have got only 1 
minute left on this.
    Mr. Blake. Well, thank you, Mr. Ranking Member.
    Let me just say with respect to the LTTE, we fully agree. 
The United States was one of the very first countries to 
declare the LTTE a foreign terrorist organization. And we have 
a long line of public statements and other condemnations that 
we issued for the terrible acts of terrorism that they were 
responsible for.
    We also took concrete action to help the Sri Lankans. We 
gave them radar systems so that they would be able to detect 
LTTE----
    Mr. Faleomavaega. That may help the Sri Lankan Government 
fight against the Navy that----
    Mr. Blake. Exactly.
    Mr. Faleomavaega [continuing]. The Tamil Tigers have.
    Mr. Blake. But, you know, we certainly took a very 
uncompromising view with respect to the LTTE. But, again, at 
the very end of the war, the question is, what happened to 
those 10,000 to 40,000 civilians who were killed? And I think 
everybody in Sri Lanka believes that there needs to be closure 
on that question and closure needs to be achieved through this 
lessons learned and reconciliation commission process. It is a 
domestic process. So it should have the support of the 
government. And we hope that that will continue. And that is 
the purpose of this resolution.
    But there needs to be justice, Mr. Chairman, for there to 
be closure. And there needs to be reconciliation between these 
communities. So that is what we are trying to achieve.
    Mr. Faleomavaega. I only have 10 more seconds, Mr. 
Secretary. I just wanted to say that that was part of the 
subject, that I discussed this personally with the President of 
Sri Lanka. And he is concerned. He is spending more time up 
there in the northern province. And all the amount of resources 
they are trying to do can make this as part of the 
reconciliation process.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you, Mr. Faleomavaega.
    The gentleman from North Carolina was next but isn't here, 
so I think the gentleman from Pennsylvania is next. Mr. Perry?
    Mr. Perry. Thank you, Mr. Chairman.
    And either gentleman can answer the question. It is fairly 
general. And I want to get away from Sri Lanka, if I could 
[laughter] for just a comment, not taking anything away from 
the effort and the gravity of the situation. But I am concerned 
about the looming defense cuts in the United States and our 
commitments to the broader region along with our continued 
commitments to Europe and the Middle East and now Africa. And I 
am wondering if you could enumerate what your view is of what 
we will need from a military standpoint to continue to balance 
or provide a balance in the region. And be fairly specific, if 
you could, on what your view is, either one of you or both of 
you, on what you think that our commitment should be and will 
need to be moving forward in the long term.
    Mr. Yun. Thank you very much.
    As you know, in our region, in the East Asia and Pacific 
region, there are now about 29,000 troops in Korea and South 
Korea and about 40,000 in Japan. And, of course, beyond that, 
really, the region of South China Sea as well as East China Sea 
and the Pacific rely on full Pacific Command, especially the 
Pacific Command Navy, to do everything that is needed to keep 
the oceans open.
    Mr. Chairman, this is a serious issue, that if there is any 
shortfall in our budget, especially going to the military side, 
I think it will affect the operations we do, freedom of 
navigation exercises we do, and certainly a lot of bilateral 
and multilateral exercises we do. These are very important to, 
number one, project our forces in the region; and, number two, 
to keep all of the sea lanes open.
    And, just last week, we concluded a multi-nation exercise 
in Thailand called Cobra Gold. And those are also very useful 
for keeping the troops in the region, working with our troops 
in the region.
    So my own view is that it will have significant effect. 
And, similarly, it will also have significant effect on the 
diplomatic side, Mr. Chairman. We have Embassies that need to 
be open. We have obligations to our local employees. Often it 
is very difficult to follow them because they come under 
national law, not U.S. law. So there are severe constraints on 
both the security side and diplomatic side.
    Thank you.
    Mr. Blake. Sir, we don't have American troops stationed in 
South Asia, but obviously we have a very expensive exercise 
program. And the Pacific Command is involved with Nepal, 
Bangladesh, many other countries in various aspects from 
disaster management to counterterrorism cooperation.
    We haven't yet learned how that, all of that, cooperation 
is going to be affected by the potential sequestration. So I 
would just support what my colleague said.
    Mr. Perry. Well, if I could, Mr. Chairman, just follow up, 
then, let's just say that the United States has to pull back a 
certain level of operational capability, few exercises, a 
diminished presence. Can you give us any thoughts to what 
scenarios you think might play out if the United States or its 
allies aren't present in that regard for keeping shipping lanes 
and sea lanes open and providing a balance? Are there certain 
actions that other actors would or would not take in the region 
based on our lack of presence or diminished availability to be 
there?
    Mr. Yun. I think we have seen about 2\1/2\ weeks ago now 
there was a third nuclear test by North Koreans. And certainly 
there is a lot of proliferation-related activities, goods going 
from Northeast Asia through Strait of Malacca to Middle East, 
Iran, and so on. So those things that we do in the region, it 
is not just about when there is an emergency, but, rather, it 
has to be daily type of activities.
    And, similarly, I do believe that you have to do, for 
example, regular freedom of navigation exercise because that is 
what makes assert our interpretation of the law of the sea and 
including what we can and what we should not do in EEC. And so 
I think it is very important that there not be up and down, you 
know, activity but, rather, we sustain the level of activity 
that we are committed to sustaining.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you.
    The gentleman from California, Mr. Bera, is recognized for 
5 minutes.
    Mr. Bera. Thank you, Mr. Chairman.
    Ambassador Blake, Mr. Yun, both in all of this talk about 
the great economic opportunity that exists between the United 
States and India and the South Asia region, Ambassador Blake, 
having spent as much time as you have there, can you comment on 
what some of the perceived threats are to that relationship and 
to the economic opportunities that exist?
    Mr. Blake. Well, you know, I think the main threat is the 
declining growth rate that has occurred in India because of 
declining investment and because there has been a slowdown in 
the economic reform efforts over the past several years. It is 
no secret that the Indian Parliament has been tied up in knots 
over debates about corruption and other such things. And so 
very little has gotten done. To its credit, they did pass a 
quite important reform to open up India to foreign direct 
investment in the multi-brand retail sector, which we think is 
very, very important. And they have taken some steps to try to 
accelerate the approval process for a foreign investment, but 
much more needs to be done. I think the Indians fully recognize 
that.
    And certainly our companies through the U.S.-India Business 
Council have given them a very rich menu of suggestions of 
things that could be done to open up in the areas of banking, 
in the areas of retail, in the areas of things like defense, 
all of which would--insurance is another one--tremendously 
increase the levels of foreign direct investment and help boost 
the levels of growth in India.
    Mr. Bera. And obviously opening up India's markets is 
beneficial both to our economy and our companies----
    Mr. Blake. Yes.
    Mr. Bera [continuing]. And certainly helps India become a 
much more modern economy. Are there strategic things that we 
can do diplomatically to help speed along this process?
    Mr. Blake. Very much so. We have a range of economic 
dialogues that we conduct with our Indian counterparts. The 
U.S. Trade Representative has something called the Trade Policy 
Forum. So there are a number of different initiatives that are 
underway that help again remove some of the blockages that do 
occur.
    But I should say that, even with some of these problems, 
India remains one of the fastest growing economies in the world 
at 5 percent. And it is projected to be the third largest 
economy in the world by 2025. And our trade continues to grow 
very substantially. It has quadrupled over the last 8 years, 
and it is growing at roughly 20 percent a year. So, you know, 
obviously we would like to do even more, but I think we are 
very happy with the progress that has been made.
    Mr. Bera. We certainly would. You know, shifting a little 
bit, I know you commented that Afghanistan is not part of the 
South Asia region, but obviously, as we draw down and bring our 
troops home, you know, it will be critical to maintain some of 
the gains and some of the stability.
    Obviously the U.S.-India relationship is a very strategic 
relationship here. From your perspective, what do you see as 
India's role in helping maintain stability in Afghanistan and 
the region entirely and then what we can do diplomatically in 
the U.S.-India relationship?
    Mr. Blake. Well, your question is a timely one, 
Congressman. We have just finished our latest trilateral 
dialogue with India and Afghanistan last week that I 
represented the United States at in Delhi. And we appreciate 
very much the significant role that India is playing in 
Afghanistan. In fact, we see India as kind of the economic 
linchpin for the future as our troops draw down, as their 
spending draws down.
    It is going to be much more important now to establish a 
private sector basis for the Afghan economy and to make a 
trade-based economy and not an aid-based economy. And India has 
such an important role to play in that.
    First, if has a very large investment program. It has 
invested in things like the Hajigak iron ore deposit that is 
going to be a major probably $8-$10 billion investment. It 
hosted a major investment conference last year to promote 
foreign investment into Afghanistan. It has its own very 
substantial assistance program of approximately $2 billion. And 
it very much has embraced this regional integration vision that 
Secretary Clinton and now Secretary Kerry have endorsed to open 
up all of these trade links to allow for, for example, the 
Turkmenistan, Afghanistan, Pakistan, India gas pipeline and 
other forms of infrastructure, road, rail, and other openings 
that will link up this region in a very significant way. And 
India is really at the heart of all of those efforts and is 
such an important part or force.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    I would like to announce that we are supposed to have a 
series of votes any minute now, but we have about 15 minutes. 
We have three more questioners, so I think we can probably, as 
a courtesy to the panel, wrap up and not have you come back. So 
if we keep to our time, we should be able to do that.
    The next gentleman is the chairman of the Western 
Hemisphere Subcommittee, the gentleman from Arizona, Mr. 
Salmon.
    Mr. Salmon. Thank you, Mr. Chairman. Ambassador Blake, Mr. 
Yun, thank you for being here today.
    I was privileged to be able to participate in a CODEL just 
in the last few weeks over with South Korea, Japan, Taiwan, and 
China and the Philippines. And a lot of issues that we talked 
about, but the most pressing issue by far was the concern of 
proliferation, the WMDs with North Korea. I am also concerned 
about the potential with Pakistan. But the issue du jour seems 
to be North Korea.
    We had a hearing a couple of weeks ago with the Secretary-
General of the United Nations. And I expressed my frustration, 
my feeling. And I think that is echoed by a lot of our 
colleague that so far the activities by the United Nations to 
try to dissuade North Korea from proliferating have been very 
impotent at best. I think we all understand that China has a 
disproportionate share of influence when it comes to motivating 
North Korea to do the right thing.
    But I would like to pose a different thought. My concern if 
North Korea continues in its path toward proliferation is 
that--how are we going to dissuade some of the other countries 
in the region, like Japan, like South Korea, and like Taiwan 
from pursuing their own nuclear programs? And then what will 
happen if all hell breaks loose in terms of all of these 
countries wanting to proliferate? What is going to happen to 
economic stability in the region? What are we going to do since 
what we are doing right now is clearly not working? What are we 
going to do move the ball up the field and properly motivate 
North Korea?
    The chairman of the full committee has recommended that 
maybe we take a look at financial institutions that provide 
financial services for North Korea and maybe we take a look at 
possibly freezing assets, as we have done in the past with Iran 
and in the past with North Korea.
    I would like your thoughts on any and all issues. I think 
it is time that we think outside the box and we do everything 
that we can otherwise I think it is going to destabilize pretty 
quickly.
    Thank you.
    Mr. Yun. Thank you very much.
    This is, of course, I think the most serious problem that 
we have in Northeast Asia today. Two weeks ago North Korea 
announced that it had done its third nuclear test. The first 
one was '06, '09 and now. And, of course, in that interim, they 
have, believe, improved their capabilities.
    And I think the first thing we have to do is make sure that 
international community is unified in their response to North 
Korea. And that has to be the burden of the U.N. Security 
Council, At the moment, we are negotiating in U.N. Security 
Council a resolution, which we believe should have Chapter 7 
incorporated as well as additional sanctions incorporated.
    Mr. Chairman, without having the international community 
with us, any kind of sanctions become very difficult to 
enforce. And I believe once we have very tough U.N. 
multilateral sanctions, thereafter it is time to enforce our 
own.
    For example, if U.N. agrees in Security Council to do 
financial sanctions, as you have suggested, then we will 
implement them. But I think to go ahead and do the unilateral 
ones could be questionable in value if other countries don't 
join us. So I think, number one, it is very important to have 
multilateral sanctions.
    Mr. Chairman, this has been a problem for a long time, not 
just since 2006, but North Korean nuclear program has been 
there probably since the late '60s. So I would say we need to 
take a longer-term view, not rather to see it if they have done 
this much in 40 years. I think to some extent, the deterrence 
has worked. And, of course, in the '70s, there was a history of 
South Korea wanting its own nuclear program, which we persuaded 
not to have.
    With regards to the position of South Korea; Japan, as you 
mentioned; Taiwan, you know, of course, we have very strong 
mutual defense treaties, both with South Korea and Japan. And 
you are out there in the region, Mr. Salmon. And you realize 
the value of them.
    I think it is safe to say we are working very, very close 
with our Japanese and South Korea and our colleagues to see 
this in a very unified vision. But ultimately China, which 
border has a long border with North Korea, a lot of burden is 
on them. I think you are right in that, sir.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    We have about 9 or 10 minutes left on the clock. We have 
three people now here that want to ask questions. I would ask 
unanimous consent that we reduce it to 3 minutes. All three can 
get in if that is okay? Without objection, so ordered.
    The gentlelady from Hawaii is recognized for 3 minutes.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    I agree with and appreciate many of the concerns that have 
already been brought up and, again, just recognize the 
importance of these relationship-building opportunities and 
partnerships. Mr. Yun, you mentioned Cobra Gold. I have also 
been involved with Garuda Shield, Yama Sakura, and other types 
of exercises that have--I have seen firsthand what benefits can 
come from these types of exchanges in really being proactive so 
that we are not getting to a point of where we are talking 
about very real tactical threats.
    As we are looking at budget cuts, which is another issue 
that I know we are all thinking about very seriously, I just 
wanted to hear from you about some of the other resources that 
we have available to us to reach that same objective, one of 
which we have based in Hawaii, the East-West Center, which has 
been a very vital resource to us nationally having an alumni of 
55,000 over 600 partner organizations, and would like to hear 
briefly from both of you how you have utilized the East-West 
Center as well as how you see the future relationship between 
the State Department and the center continuing, especially as 
we look at this rebalance toward Asia and the Pacific.
    Mr. Yun. Thank you very much. I think East-West Center has 
been crucial in building relationship and exchanges in Asia and 
us. Hawaii, therefore, has become center of so many think tanks 
and so many military and civilian diplomats as well as 
politicians. I think it would be really a shame if we were to 
reduce funding for East-West Center. And we would be very 
supportive of sustaining it as much as possible.
    Mr. Blake. I would strongly second that. We have a parade 
of South Asians who go to the East-West Center. I myself have 
addressed it several times. And it is one of our premier 
institutions. And I am hoping to do everything we can to 
preserve funding for it.
    Mr. Chabot. Thank you. The gentlelady yields back. Thank 
you very much.
    The gentleman from California is recognized for 3 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I will just get right into it. It is a travesty that the 
United States has such an integrated economy and our economic 
well-being is so tied to the world's worst human rights abuser, 
namely China, and that we have not developed as much economic 
relationship and as great an economic relationship as we have 
with India. And it just seems to me that this is something we 
have got to come to grips with. This is out of synch with the 
long-term interests of the people of the United States because 
in the long run, if we just ignore the totalitarian nature of 
the Chinese regime, we are going to pay a price. And that is 
already becoming very evident.
    Mr. Chairman, I want to thank you for your leadership in 
starting out this way for this new session of Congress. Let's 
hope in this session of Congress we recognize that China is 
playing an increasingly negative role that has got to be 
addressed. And it will be addressed by our relationship with 
other countries in Asia like India.
    Today we see the Chinese supporting, for example, just what 
they are doing with Pakistan, just what they are doing with 
Pakistan. The Chinese are helping this state, the sponsor of 
terrorism. They are trying to have a power grab for the rare 
minerals, the oil, the gas, and other natural resources of 
Central Asia. And we have got to come to grips with this. And I 
would hope that those of you in the Executive Branch, that we 
work together to reshape America's basic policy toward Asia so 
that, instead of a tilt toward China with a blind eye toward 
human rights and democracy, that, instead, we with both eyes 
open focus on trying to get better relations with India and 
those other countries who are struggling for democracy.
    That is my statement. Thank you very much.
    Mr. Chabot. Thank you very much.
    And because of time, I think the statement speaks for 
itself. We will turn to the gentleman from Virginia for 3 
minutes, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    In picking up on Mr. Rohrabacher's statement, Ambassador 
Blake, I assume you would agree that there is something to 
that. In terms of with the end of the Cold War and with the 
rapprochement between the United States and India, there are 
new opportunities for creating space among many relationships, 
including the juxtaposition with China.
    Mr. Blake. Mr. Connolly, nice to see you again.
    Mr. Connolly. Likewise.
    Mr. Blake. We have been very proud of the progress we have 
made in our relations with India. And India itself has made 
tremendous progress in its relations with China, particularly 
on the economic front, where their trade is almost 70 billion 
now and is their fastest growing treading partner. They still 
have some tensions on border issues and things like that, but 
both of us have been clear that the progress that we are making 
in our respective relations with China is not coming at the 
expense of the other. We are not seeking to contain China. We 
are trying to engage China as much as possible. And certainly 
in my 4 years working on this job, I have spent a lot of time 
trying to get China to work more closely with us on our central 
objectives in places like Afghanistan to get them to invest 
more in the infrastructure there.
    Mr. Connolly. And I would agree with everything you are 
saying. I by no means was once suggesting containment or at the 
expense of, but in terms of the richness of the fabric of South 
Asia,----
    Mr. Blake. Right.
    Mr. Connolly [continuing]. The emerging relationship that 
did not exist heretofore between the United States and India it 
seems to me is definitely in our mutual best interest----
    Mr. Blake. Right.
    Mr. Connolly [continuing]. And especially in light of 
unfolding facts and developments in the region.
    Mr. Blake. Absolutely.
    Mr. Connolly. One more question, if I may, for both of you. 
In the so-called pivot to Asia or rebalancing in Asia, I have 
seen some documents that talk about the purpose of all of this, 
maybe renegotiating bases in the Philippines and elsewhere in 
the region and so forth and plus existing treaty obligations is 
to deter aggression. I am very worried about that expression 
because presumably it means more than deterring pirates. And I 
am worried about false expectations, that it raises 
expectations in the region that the United States will extend 
its defense umbrella. And that is a very difficult expectation 
to meet. How are we managing those expectations in 30 seconds? 
[Laughter.]
    Mr. Yun. We are managing very well.
    Mr. Connolly. Thank you very much.
    Mr. Yun. No. Mr. Connolly, I think you are 100 percent 
right. I think to emphasize deterring aggression at the expense 
of others I think is misleading. I would say pivot to Asia is, 
by and large, most about our economic presence. We need to be 
there to take advantage of the increasing economic value that 
is out there, investment trade.
    We look at the opening up of Southeast Asia. American 
companies have tremendous advantage in infrastructure. Look at 
GE. Look at Boeing. Look at how we build airports. So I think 
that has to be the number one emphasis, sir.
    Mr. Chabot. The gentleman's time has expired.
    I would like to thank the panel here this afternoon. 
Members will have 5 days to submit additional questions or 
extend their remarks. The panel did an excellent job here this 
afternoon. We appreciate it.
    If there is no further business to come before the 
subcommittee, we are adjourned. Thank you.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
